APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
————
No: 19-2448
————
IN RE: WILBUR-ELLIS COMPANY, LLC
Petitioner,
————
Appeal from U.S. District Court for the Eastern
District of Missouri - St. Louis
(4:14-cv-00859-RWS)
————
JUDGMENT
Before KELLY, BOWMAN, and STRAS, Circuit
Judges.
Petition for writ of mandamus has been considered
by the court and is denied. Mandate shall issue
forthwith.
July 12, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
_________________________________________
/s/ Michael E. Gans

2a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
[Filed 01/04/19]
————
Case No. 4:14 CV 859 RWS
————
BLUE BUFFALO COMPANY, LTD.,
vs.

Plaintiff,

WILBUR-ELLIS COMPANY, LLC and,
DIVERSIFIED INGREDIENTS, INC.,
Defendants.
AND RELATED ACTIONS
————
ORDER AND MEMORANDUM
This matter is before me on Blue Buffalo Company’s
Motion to Compel Production of Wilbur-Ellis’s Brief
from the Ironshore Litigation [ECF. No. 1202]. After
fully considering the materials submitted by the parties, and the oral argument presented on the record at
the October 19, 2018 hearing before me [ECF Nos.
1329, 1337], I will grant Blue Buffalo’s Motion for the
reasons set forth below.
Background
While this case has proceeded in the Eastern
District of Missouri, Wilbur-Ellis has also engaged in
litigation with Ironshore, an insurance provider, in
California Superior Court. Ironshore Specialty Ins. Co.

3a
v. Wilbur-Ellis Co., Case No. CGC-15-549583 (Cal.
Sup. Ct.). That litigation pertains to the extent of Ironshore’s duty to cover and defend Wilbur-Ellis in this
case.
In 2016, Wilbur-Ellis moved to stay the Ironshore
litigation pursuant to a California doctrine known as
the Montrose Doctrine. See Montrose Chemical Corp.
v. Superior Court, 6 Cal. 4th 287 (1993). Under the
Montrose Doctrine, a California judge may stay a
coverage dispute between an insurer and an insured
party when the insured party also faces an underlying
litigation related to the insurance coverage dispute.
According to the Montrose Court, this stay helps the
insured party avoid a scenario in which it must prove
facts in the insurance coverage case that prejudice it
in the underlying litigation.
In support of its motion for a stay in the Ironshore
case, Wilbur-Ellis filed its Supplemental Brief in
Support of Motion to Stay Case [hereinafter Ironshore
Brief], under seal on June 13, 2016. California Superior Court Judge Karnow issued an Order staying the
case on June 20, 2016. After learning of the Ironshore
Brief, Blue Buffalo sent Wilbur-Ellis a discovery
request for an unredacted copy of it. Wilbur-Ellis has
not produced the brief.
Legal Standard
When responding to discovery requests, parties
must produce any nonprivileged, responsive materials
that are “relevant to any party’s claim or defense and
proportional to the needs of the case.” Fed. R. Civ. P.
26(b)(1). As applied by federal courts, Rule 26(b) is
“liberal in scope and interpretation.” Hofer v. Mack
Trucks, Inc., 981 F.2d 377, 380 (8th Cir. 1992). The
party seeking discovery, however, must still make

4a
“[s]ome threshold showing of relevance.” Id. Once the
requesting party makes that showing, “the burden is
on the party resisting discovery to explain why discovery should be limited.” CitiMortgage, Inc. v. Allied
Mortg. Grp., Inc., No. 4:10CV01863 JAR, 2012 WL
1554908, at *2 (E.D. Mo. May 1, 2012).
Discussion
I. Relevance of the Ironshore Brief
To obtain discovery of Wilbur-Ellis’s sealed brief
from the Ironshore litigation, Blue Buffalo first has the
burden of showing that the document is relevant to
this case. Blue Buffalo clearly met this burden.
In its Memorandum of Law supporting the Motion
to Compel [Doc. No. 1203], Blue Buffalo cited WilburEllis’s representations to the California Superior
Court when Wilbur-Ellis sought the Montrose stay. In
oral argument in that case, Wilbur-Ellis confirmed
that there were potential undeveloped facts that
would help Wilbur-Ellis against Ironshore, but that
would hurt Wilbur-Ellis here. Blue Buffalo Memorandum of Law Supporting the Motion to Compel, Doc.
No. 1203, 3 (citing Ex. 4 (May 3, 2016 Tr.) at 34-35). In
allowing Wilbur-Ellis to file its brief arguing for a stay
under seal, Judge Karnow cited a “significant adverse
impact on [Wilbur-Ellis’s] ability to defend itself” in
the case against Blue Buffalo. Id. at 4 (citing Ex. 2
(June 10, 2016 Order Sealing Brief) at 2).
Wilbur-Ellis concedes the relevance of the facts
contained in the redacted portions of the Ironshore
Brief. Tr. of October 19, 2018 Hearing, ECF No. 1337,
37 (“We concede this information is relevant.”). It
argues that its position opposing discovery of the brief
does not mean “Blue Buffalo should be denied discovery of facts discussed in the Ironshore Brief,” but

5a
rather that Blue Buffalo is not entitled to the facts as
Wilbur-Ellis presents them in the brief. Wilbur-Ellis
Memorandum in Opposition, ECF No. 1208, 9.
II. Judge Karnow’s Order Sealing the Ironshore
Brief
Because the material in the sealed brief is relevant,
Wilbur-Ellis bears the burden of showing that Blue
Buffalo is otherwise not entitled to it. Wilbur-Ellis
principally argues that I should defer to the Judge
Karnow’s decision to seal the brief so as to prevent
Blue Buffalo from discovering the information therein.
At Wilbur-Ellis’s invitation, I have reviewed the
unredacted Ironshore Brief in camera. Wilbur-Ellis
offered I do so “in order to understand that no relevant
facts are being withheld from Blue Buffalo.” WilburEllis Memorandum in Opposition, ECF No. 1208, 9
n.3. My review of the brief leads me to conclude the
opposite: the brief contains relevant facts to which
Blue Buffalo is entitled.
Judge Karnow’s effort to shield Wilbur-Ellis’s filing
from discovery in the case before me presents me with
a difficult scenario. I am aware that my decision here
frustrates Judge Karnow’s aim of constraining discovery in this litigation. It does not, however, undermine
or affect California’s interest in the stayed California
Superior Court’s proceeding. I am not ruling on the
propriety of the Montrose doctrine in California courts,
and my decision has no impact on the stayed
California dispute. Both parties in that case already
have access to the unredacted copy of Wilbur-Ellis’s
sealed brief.
During oral argument on this dispute, Wilbur-Ellis
directed my attention to Alleghany Corp. v. McCartney, 896 F.2d 1138 (8th Cir. 1990), a case centering on

6a
Younger Abstention. Tr. of October 19, 2018 Hearing,
ECF No. 1337, 37. In its brief, Wilbur-Ellis cited Alleghany for the proposition that “[f]ederal courts should
avoid making decisions that would undermine or
contravene important state policies.” Wilbur-Ellis
Memorandum in Opposition, ECF No. 1208, 6.
In Alleghany, the Eighth Circuit found “abstention
proper where plaintiff sought federal relief from
administrative body’s denial of application rather
than seeking judicial review in state court.” Planned
Parenthood of Greater Iowa, Inc. v. Atchison, 126 F.3d
1042, 1048 n.3 (8th Cir. 1997) (describing Alleghany).
The discovery matter before me does not raise an
abstention issue. Wilbur-Ellis does not argue to the
contrary. Alleghany is not on point, and it does not
stand for the broad avoidance proposition Wilbur-Ellis
asserts.
The principles of comity are indeed important in our
federal system. But also important is the longstanding
admonition that federal courts have “no more right to
decline the exercise of jurisdiction which is given, than
to usurp that which is not given.” Sprint Commc’ns,
Inc. v. Jacobs, 571 U.S. 69, 77 (2013) (citing Cohens v.
Virginia, 6 Wheat. 264, 404 (1821)). California’s interest in protecting insureds from developing facts that
may hurt them in an underlying litigation does not
constrain me from applying Rule 26 to determine
whether the document is discoverable.
III. Exceptions to Disclosure Under Rule 26
Wilbur-Ellis also raises arguments against discovery that map onto the language of Rule 26. It argues
that producing the Ironshore Brief is burdensome,
duplicative, and may raise privilege concerns. The
brief is not privileged, and the balance of the Rule 26

7a
proportionality factors weighs heavily in favor of my
Order of production.
a. Privilege
Wilbur-Ellis suggests, but does not explicitly argue,
that the brief is privileged. Wilbur-Ellis argues that
the brief contains legal reasoning, that it submitted
the brief under seal pursuant to a judicial order, and
that it shares tripartite privilege with its opponent in
the Ironshore litigation. I do not need to address the
arguments regarding legal reasoning and the tripartite privilege, because Wilbur-Ellis waived whatever
privilege it may have had over the document when it
voluntarily filed it with the court.
The California Superior Court may have ordered the
seal, but it was Wilbur-Ellis that chose what information to submit to the court in its sealed brief. Judge
Karnow did not require Wilbur-Ellis to proffer the potentially prejudicial information that it included in the
brief. Cf. Order Sealing Portions of Defendants’ Brief,
Mangi Declaration Ex. 2, ECF No. 1204-2, at 2 (reflecting Judge Karnow’s review of Wilbur-Ellis’s submitted
brief to determine which portions “plaintiffs in the
underlying litigation might be able to use . . . to defendant’s great disadvantage,” and redacting those
portions).
The California cases Wilbur-Ellis cites to bolster its
privilege argument are not contrary to this Order. The
Ironshore Brief is not a communication between
Wilbur-Ellis and its insurer. Cf. Am. Mut. Liab. Ins.
Co. v. Superior Court, 38 Cal. App. 3d 579, 593 (Ct.
App. 1974) (describing the importance of protecting
privileged communication “exchanged in confidence”
between an attorney, the insurer, and the insured). It
is not similar to a document that a judge reviews in

8a
camera in order to make a privilege determination. Cf.
Rockwell Internat. Corp. v. Superior Court, 26 Cal.
App. 4th 1255, 1264, 32 Cal. Rptr. 2d 153 (1994) (“Any
claim of privilege asserted is subject to in camera
review in the . . . superior court”). Instead, the Ironshore Brief is a communication with a third party,
the California Superior Court, which resulted from
Wilbur-Ellis’s strategic calculation to explain certain
facts in order to secure a favorable decision from the
court.
Wilbur-Ellis contends that “there is no merit to Blue
Buffalo’s argument that the filing in a coverage case of
a brief under seal containing tripartite privileged
communications operates as a waiver.” Wilbur-Ellis
Memorandum in Opposition, ECF No. 1208, 10. On the
contrary, I find that there is indeed “merit to Blue
Buffalo’s argument” that the voluntary “filing in a
coverage case of a brief under seal” operates as a
waiver of any privilege—tripartite or otherwise—that
Wilbur-Ellis may have claimed over brief before filing
it.
b. Proportionality Test
The production of this brief is neither burdensome
nor duplicative. Wilbur-Ellis argues that producing
this document places a burden on Wilbur-Ellis, because the document is so detrimental to its defense in
this case. Wilbur-Ellis contends that prejudice against
a party is a valid reason to prevent discovery that
poses no logistical burden. This is unpersuasive. Relevant documents are not inherently burdensome to
produce simply because they contain potentially detrimental information to a party in the case. Discovery is
often prejudicial to the party from whom it is sought.
If highly prejudicial documents were non-discoverable,
parties would have free reign to exclude the docu-

9a
ments most “relevant to any party’s claim or defense.”
Fed. R. Civ. P. 26(b)(1). In this matter, my order to
produce the Ironshore Brief poses virtually no burden
to Wilbur-Ellis. Even if I considered the prejudicial
effect of the discovery as burdensome, that burden
does not—on its own or in concert with the other
balancing factors in Rule 26—outweigh the likely
benefit of the brief’s production in the case.
That Blue Buffalo may have already obtained the
facts in the brief does not tip the scales in favor of
Wilbur-Ellis. In discovery, parties often produce different forms of documents and media that may contain
substantially similar or identical information. As I
explain above, the burden on Wilbur-Ellis is negligible, so it does not “outweigh[] [the] likely benefit” of
disclosure. Id. Blue Buffalo, not Wilbur-Ellis, has the
power to choose the manner in which it organizes its
case and presents evidence. When Blue Buffalo requests relevant, non-privileged discovery that is not
burdensome to produce, Wilbur-Ellis’s attempt to prevent it on the grounds that Blue Buffalo could get the
information some other way is not valid.
Conclusion
The Ironshore Brief is relevant, nonprivileged, and
its disclosure is proportional to the needs of this case.
Accordingly,
IT IS HEREBY ORDERED that Blue Buffalo’s
Motion to Compel Production of Wilbur-Ellis Brief
from the Ironshore Litigation [ECF No. 1202] is
GRANTED.
/s/ Rodney W. Sippel
RODNEY W. SIPPEL
UNITED STATES DISTRICT JUDGE
Dated this 4th day of January, 2019.

10a
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
[Filed 06/06/19]
————
Case No. 4:14 CV 859 RWS
————
BLUE BUFFALO COMPANY, LTD.,
Plaintiff,
vs.
WILBUR-ELLIS COMPANY, LLC and,
DIVERSIFIED INGREDIENTS, INC.,
Defendants.
AND RELATED ACTIONS
————
ORDER AND MEMORANDUM
This matter is before me on Wilbur-Ellis’s motion for
reconsideration, or in the alternative, for certification
to the Eighth Circuit, of my ruling on Blue Buffalo’s
motion to compel production of the Ironshore Brief.
Wilbur-Ellis contends that I should reconsider that
order because I failed to properly consider California’s
interest in protecting Wilbur-Ellis in this matter, and
because I failed to properly articulate my authority to
deny Blue Buffalo’s motion. In the alternative, WilburEllis argues that this is a question of extraordinary
significance, and I should therefore certify my resolution of this discovery dispute for appeal. For the
reasons below, I will deny Wilbur-Ellis’s motion.

11a
I. Motion to Reconsider
Wilbur-Ellis moves for me to reconsider the original
order under Federal Rule of Civil Procedure 54(b),
which provides that an order like the one at issue “may
be revised at any time before the entry of a judgment
adjudicating all the claims and all the parties’ rights
and liabilities.” Fed. R. Civ. P. 54(b). Under Rule 54(b),
I have “wide discretion over whether to grant a motion
for reconsideration of a prior order.” SPV-LS, LLC v.
Transamerica Life Ins. Co., 912 F.3d 1106, 1111 (8th
Cir. 2019) (citing In re Charter Commc’ns, Inc., Sec.
Litig., 443 F.3d 987, 993 (8th Cir. 2006)), reh’g denied
(Feb. 1, 2019).
In its original opposition to Blue Buffalo’s motion,
Wilbur-Ellis discussed the importance of comity. In its
memorandum in support of reconsideration, WilburEllis contends that I did not properly consider the importance of comity. Wilbur-Ellis argues that while
“there is no rule requiring a court to deny a motion to
compel a sealed document,” I should apply a different
test and more fully consider California’s interest in
protecting Wilbur-Ellis from providing discovery material in this litigation. [See Wilbur-Ellis Reply, ECF
Doc. No. 1380, at 1]. In making this argument, WilburEllis provides a more in-depth discussion of the comity
argument it raised in its original motion. The memorandum comprehensively reviews cases in which other
judges facing different circumstances have decided to
defer to state court protective orders.
To the extent Wilbur-Ellis discusses comity in a
novel way in its memorandum in support of reconsideration, it does so based on “facts or legal arguments
that could have been, but were not, raised at the time
the relevant motion was pending.” Julianello v. K-V
Pharm. Co., 791 F.3d 915, 923 (8th Cir. 2015). As part

12a
of the basis for its motion to reconsider, Wilbur-Ellis
argues I should consider Riddell, Inc v. Super. Ct., a
relatively new case that it contends expanded the
Montrose Doctrine protections available to California
policyholders. See Riddell, 14 Cal. App. 5th 755 (Ct.
App. 2017) (discussing Montrose Chem. Corp. v. Super.
Ct., 6 Cal. 4th 287 (1993)).
Wilbur-Ellis could have submitted Riddell between
when it filed its original brief and the date of my order,
January 4, 2019. Regardless, the case supports my authority to order production of the Ironshore Brief. In
Riddell, the California Court of Appeal determined
that the Montrose Doctrine supported a stay of discovery so that the insured party could avoid developing
facts that are prejudicial to it in the underlying action.
This was, in part, because a federal district court “is
not bound by a state court confidentiality order in the
coverage action.” Riddell, 14 Cal. App. 5th at 768 (Ct.
App. 2017).
When I originally ordered that Wilbur-Ellis must
produce the Ironshore Brief, I was aware that I could
decline to order the brief’s production out of deference
to the state court. I acknowledged the comity interests
at play and ordered production despite the fact that
my order ran contrary to the state court’s aim of constraining discovery in the litigation before me. In
making the determination that Wilbur-Ellis must produce the brief, I considered and gave little weight to
the state court’s application of California’s interest
insofar as it was specifically designed to help WilburEllis avoid discovery in this case.
The California case law that the parties have
provided me supports Blue Buffalo’s argument that
the appropriate effectuation of the Montrose Doctrine
is a stay, not a protective order. In this case, the pro-

13a
tective order relied on what appears to be a novel,
or at best rarely used, application of the Montrose
Doctrine. I agree with Wilbur-Ellis that the values of
comity and federalism are important in our federal
system. I do not agree that this is a situation in which
I should defer to the state court’s sealing order, and I
will not reconsider my initial order.
II. Motion to Certify the Question to the Eighth
Circuit Court of Appeals
This dispute does not present a question for which
certification to the Eighth Circuit is appropriate. A
district court may certify an appeal to the circuit court
when an order “involves a controlling question of law
as to which there is substantial ground for difference
of opinion and [] an immediate appeal from the order
may materially advance the ultimate termination of
the litigation.” 28 U.S.C. § 1292(b); see also Union Cty.,
Iowa v. Piper Jaffray & Co., 525 F.3d 643, 646 (8th Cir.
2008) (setting forth the certification factors as a three
part test). Interlocutory review under § 1292(b) “must
be granted sparingly” and “only in exceptional cases
where a decision on appeal may avoid protracted and
expensive litigation, as in antitrust and similar protracted cases.” White v. Nix, 43 F.3d 374, 376 (8th Cir.
1994) (concluding that a district court abused its
discretion in certifying an interlocutory appeal of a
discovery dispute) (quoting S.Rep. No. 2434, 85th
Cong., 2d Sess. (1958)).
Wilbur-Ellis concedes that my decision did not
violate an applicable rule of law. [See Wilbur-Ellis
Reply, ECF Doc. No. 1380, at 8]. Wilbur-Ellis nonetheless contends that the discovery dispute presents a
controlling question of law: the extent to which I
correctly considered comity, federalism, judicial administration, and deference to California’s applicable

14a
public policy. An “allegation of abuse [of discretion]
does not create a legal issue.” White v. Nix, 43 F.3d
374, 377 (8th Cir. 1994); see also id. at 377-78 (“the
discretionary resolution of discovery issues precludes
the requisite controlling question of law.”). Because
Wilbur-Ellis has not identified a controlling question
of law, and the “the requirements of § 1292(b) are
jurisdictional,” I will deny Wilbur-Ellis’s motion for
certification under 28 U.S.C. § 1292(b).
Accordingly,
IT IS HEREBY ORDERED that Wilbur-Ellis’s motion
for reconsideration, or in the alternative, for certification under 28 U.S.C. § 1292(b) [1371], is DENIED.
/s/ Rodney W. Sippel
RODNEY W. SIPPEL
UNITED STATES DISTRICT JUDGE
Dated this 6th day of June, 2019.

15a
APPENDIX D
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
[Filed May 4, 2016]
————
Case No. CGC – 15-549583
————
IRONSHORE SPECIALTY INSURANCE COMPANY,
vs.

Plaintiff,

WILBUR-ELLIS CO., et al.,
Defendants.
————
ORDER DENYING WILBUR-ELLIS’ MOTION
RE FORUM NON CONVENIENS AND
CONTINUING MOTION TO STAY
I heard argument May 3, 2016 on Wilbur-Ellis’ motion to stay the case pending resolution of the underlying litigation, or to dismiss it because the forum is
inconvenient.
This is an insurance coverage action. The underlying litigation involves allegations that Wilbur-Ellis is
liable for providing less than bargained for ingredients
for pet food. The cases include one in the Eastern
District of Missouri, Nestle Purina Pet Care Company
v. The Blue Buffalo Company Ltd. (Case No. 14-cv00859-RWS) (the Purina Action), and In re: Blue
Buffalo Company, Ltd. Marketing and Sales Practices
Litigation (Case No. 14-md-2562-RWS) (the Consumer
Class Actions).
Ironshore issued three primary liability insurance
policies to Wilbur-Ellis. They cover “those sums that the

16a
insured becomes legally obligated to pay as damages
because of . . . . property damage to which this insurance
applies,” provided that the damage was caused by an
“occurrence.” The policies define property damage as:
a. Physical injury to or destruction of tangible property, including all resulting loss of
use and diminished value of that property;
b. Loss of use of tangible property that is not
physically injured or destroyed arising out
of physical injury to or destruction of other
tangible property[.]
Ironshore filed this action against Wilbur-Ellis in
December 2015, seeking a declaration that it is not
required to cover Wilbur-Ellis in connection with either the Purina Action or the Consumer Class Actions.
It also seeks damages in the form of reimbursement.
Wilbur-Ellis now moves to stay the case pending resolution of the underlying litigation, or to dismiss it because the forum is inconvenient.
Judicial Notice
Wilbur-Ellis requests judicial notice of various filings and court orders in the underlying litigation. The
requests are unopposed and are granted. Evid. Code
§ 452(d).
Motion to Stay
The parties are in agreement that this case should
be stayed. Montrose Chem. Corp. v. Superior Court,
6 Cal. 4th 287, 295 (1993) (Montrose I) (“To eliminate
the risk of inconsistent factual determinations that
could prejudice the insured, a stay of the declaratory
relief action pending resolution of the third party suit
is appropriate when the coverage question turns on
facts to be litigated in the underlying action.”). They

17a
disagree whether I should nevertheless permit the
issue, specifically, whether the property damage definition pretermits Ironshore’s defense responsibilities.
There are three types of prejudice that may result
from simultaneous litigation of insurance coverage
and the underlying cases: (1) that the insurer will “join
forces with the plaintiffs in the underlying actions as
a means to defeat coverage;” (2) that the insured will
be “compelled to fight a two-front war, doing battle
with the plaintiffs in the third party litigation while at
the same time devoting its money and its human
resources to litigating coverage issues with its carriers;” and (3) that “the insured may be collaterally
estopped from relitigating any adverse factual
findings in the third party action, notwithstanding
that any fact found in the insured’s favor could not be
used to its advantage.” Montrose Chem. Corp. v.
Superior Court, 25 Cal.App.4th 902, 909-10 (1994)
(Montrose II).
At first blush these factors do not appear to bar the
summary adjudication motion. The motion will not
necessary have the insurer joining forces with the
underlying complainants. One motion does not a war
make. And I do not make fact findings when I decide
motions for summary adjudication or judgment
Aguilar v. Atl. Richfield Co., 25 Cal. 4th 826, 856
(2001).
If there is a viable summary adjudication motion—
that is, there are indeed no material disputed facts—
no prejudice to the insured should be generated.
if the declaratory relief action can be resolved
without prejudice to the insured in the underlying action—by means of undisputed facts,
issues of law, or factual issues unrelated to

18a
the issues in the underlying action—the declaratory relief action need not be stayed.
Great Am. Ins. Co. v. Superior Court, 178 Cal. App. 4th
221, 235 (2009) (Croskey, J.). On the other hand, it is
at least conceivable in the abstract that to defeat a
summary adjudication motion an insured will present,
or develop, facts1 which are useful to establishing a
duty to defend but which can be used by the underlying complainants against the insured. It is not possible
to ascertain the degree of prejudice involved in the
abstract, because the pertinent facts (i) might already
be available to, and indeed have been used by, the
underlying complainants, or (ii) may be secret, or
subject to future discovery in either the underlying
case or the insurance dispute litigation, in which case
preparation for the summary adjudication motion in
the coverage litigation might prejudice the insured.
As discussed at our hearing, Ironshore has a draft of
the motion at issue, and has agreed to provide it to
Wilbur-Ellis. Ironshore may wish to edit this. Ironshore should provide a draft to Wilbur-Ellis (and lodge
a copy with the court) not later than May 19. Each side
may then provide supplemental briefing, not more
than 5 pages, not later than May 27, on whether I
should allow the filing of a motion with substantially
that content.
1

Great Am. Ins. Co. v. Superior Court, 178 Cal. App. 4th 221,
234 (2009) (“In determining whether a duty to defend exists,
courts compare the allegations of the underlying complaint with
the terms of the policy. (Horace Mann Ins. Co. v. Barbara B.,
supra, 4 Ca1.4th at p. 1081, 17 Cal.Rptr.2d 210, 846 P.2d 792.)
Facts extrinsic to the complaint may also be considered.
(Montrose Chemical Corp. v. Superior Court, supra, 6 Cal.4th at
pp. 295, 298-299, 24 Cal.Rptr.2d 467, 861 P.2d 1153.)”) (Emphasis supplied.)

19a
The matter will be deemed submitted as of May 27,
2016.
Forum Non Conveniens
Wilbur-Ellis asks the case be in effect transferred to
the Eastern District of Missouri, where the underlying
litigation is pending. C.C.P. § 410.30. Stangvik v.
Shiley Inc., 54 Ca1.3d 744, 751 (1991). Wilbur-Ellis
has no evidence that the federal court has jurisdiction.
Even if it did, the facts weigh strongly in favor of
keeping the case in California. First, as Wilbur-Ellis
acknowledges, Ironshore’s decision to file in California
deserves “due deference,” albeit not a “strong presumption.” Motion, 12. Second, while Wilbur-Ellis
claims that many witnesses and most of the evidence
is located in Missouri, or at least outside of California,
there is no evidence of this. Third, this suit was filed
against California corporation and involves an insurance policy issued in California. It should stay here.
Dated: May 4, 2016

/s/ Curtis E.A. Kamow
Curtis E.A. Kamow
Judge Of The Superior Court

20a
APPENDIX E
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
[Filed June 10, 2016]
————
Case No. CGC – 15-549583
————
IRONSHORE SPECIALTY INSURANCE COMPANY,
vs.

Plaintiff,

WILBUR-ELLIS CO., et al.,
Defendants.
————
ORDER SEALING PORTIONS
OF DEFENDANT’S BRIEF
On June 1, 2016 I issued an order regarding defendant’s attempt to provide me with a lodged but not
sealed brief. In response the parties on June 6 filed a
one-shot submission1 on defendant’s request to seal. I
resolve the request to seal here.
I am sensitive to the legal requirement that my
order be narrowly tailored, and that I seal the minimum words consistent with a showing of an overriding
interest sufficient to overcome the public’s interest in
an open file. CRC 2.550 et seq.

1

This optional process by which parties may have me resolve
issues is outlined in the Users’ Manual at http://wwww.sfsuperio
rcourt.org/divisions/civil/litigation. The Manual also explains the
use of the Delta document referred to below.

21a
As I understand the plaintiff’s position, it does not
disagree with the sealing request but contends that
some of the sections sought to be sealed should be
stricken, not sealed, because they are irrelevant to the
underlying motion. Compare, Overstock.Com, Inc. v.
Goldman Sachs Grp., Inc., 231 Cal. App. 4th 471, 500,
506, 508 (2014). I am not prepared now to make decision on the underlying merits, which in this particular
case likely would have to be done to resolve the relevancy issue; I assume that the sections identified by
the plaintiff were presented in good faith by defendant
as part of its argument on the merits.
The basis for sealing is that the disclosure of the
material would have a significant adverse impact on
the defendant’s ability to defend itself in underlying
litigation. Thus I have scoured the material to determine the extent to which plaintiffs in the underlying
litigation might be able to use it to defendant’s great
disadvantage. I also find that valid reasons for sealing
are the very principles of law which, in the appropriate
case, allow insureds such as defendant here to secure
a stay of the coverage case pending resolution of the
underlying litigation. If I do not seal as indicated in
this order, defendant will be severely impacted in the
underlying litigation, and its rights to be free of the
sort of prejudice which may stem from a coverage case
will be severely and adversely impacted.
Mindful that my order must be narrowly tailored,
these following words and phrases may be redacted
from the publicly filed version of the defendant’s brief,
with an unredacted version filed as a sealed document

22a
(page and line numbers refer to the Delta document
provided by the defendant):2


i (table of contents): line 4: last word after
“Its”.



1: line 16, last words after ‘about’; line 17,
after ‘its’, the following words to end of the
sentence; line 18, after “Whether the” up
to “in the underlying”; line 20, everything
after “potentially”.



3: line 5, everything after the comma to
the end of the sentence; line 7: after
‘interviews’ to the end of line 16; line 2324 (caption): everything in the caption
after “ITS”.



4: line 11, after “having to establish” to the
end of line 15 (end of the paragraph); line
18the sentence that begins after footnote
call 3 up to the sentence that begins on
line 19 “Both Blue . . .”



5: line 4 materials which begin “Although”
to the end of the paragraph (at line 12);
line 14 through to the material on line 19
that ends “issues”; line 21, from the words
“that” to the end of the sentence.

I find that there is an overriding interest in having
these selected portions sealed, which overcomes the
right of public access; this overriding interest supports
the sealing of the selected items; there is a substantial
probability that the overriding interest will be preju-

2

I have assumed that the documents referred to in the Delta
document at 4-5 such as pleadings in the underlying case are not
sealed there.

23a
diced if I do not seal the records, and there are no less
restrictive means to achieve the overriding interest.
The filings of the public and private versions of the
document at issue must be accomplished not later
than June 15, 2016 at which time the underlying
motion (to stay or permit the filing of a summary
judgment motion) will be deemed submitted.
Dated: June 10, 2016

/s/ Curtis E.A. Karnow
Curtis E.A. Karnow
Judge of the Superior Court

24a
APPENDIX F
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
[Filed June 20, 2016]
————
Case No. CGC – 15-549583
————
IRONSHORE SPECIALTY INSURANCE COMPANY,
Plaintiff,
vs.
WILBUR-ELLIS CO., et al.,
Defendants.
————
ORDER RE STAY
One June 10, 2016 I issued an order regarding the
sealing of materials in support of a request to extend
the stay in this case to Ironshore’s contemplated motion for summary adjudication. The underlying motion
(whether I should also stay the summary adjudication
motion) was deemed submitted June 15, 2016.
Although Wilbur-Ellis might be able to address the
issues presented by Ironshore’s summary adjudication
motion without disclosing materials which might prejudice it in the underlying litigation, if it were free to
create all triable issues of fact, it might reasonably
allude to facts, in order to show a triable issue regarding diminution in value, or hazard which would prejudice it in the underlying litigation. I say “might”
because it is true that Wilbur-Ellis first disagrees with
Ironshore’s view of the law which, if Wilbur-Ellis is
right, might pretermit to the need to develop and

25a
display prejudicial facts. But Wilbur-Ellis’ counsel
must also account for the possibility that I might agree
with Ironshore and so must present all facts in order
to contest the summary adjudication motion. I should
not put the insured, Wilbur-Ellis, in that position.
The stay extends to the filing of Ironshore’s summary adjudication motion.
A case management conference is set for December
1, 2016 at 9:00 a.m. to consider the status of the
underlying litigation and estimate when the present
matter may proceed. In the meantime, if either party
believes events in the underlying litigation suggest a
change of status in this one, they should arrange for
an informal telephone conference with me.
Dated: June 20, 2016

/s/ Curtis E.A. Karnow
Curtis E.A. Karnow
Judge Of The Superior Court

26a
APPENDIX G
[1] SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
BEFORE THE HONORABLE
CURTIS E.A. KARNOW
DEPARTMENT 304
————
No. CGC-15-549583
————
INRONSHORE SPECIALTY INSURANCE COMPANY,
Plaintiff,
vs.
WILBUR-ELLIS COMPANY, A CALIFORNIA, et al.
Defendants.
————
REPORTER’S TRANSCRIPT OF PROCEEDINGS
(MOTION FOR STAY and MOTION FOR FORUM
NON CONVENIENS)
May 3, 2016
Taken before HOLLY SAYERS
CSR No. 13678
JOB NO. 106836
[2] APPEARANCES OF COUNSEL:
For the Plaintiff:

LAURA RUETTGERS, ESQ.
SEVERSON & WERSON
One Embarcadero Center
San Francisco, CA 94111

For the Defendant:

27a
MARTIN MYERS, ESQ.
COVINGTON & BURLING
One Front Street
San Francisco, CA 94111
* * *

[17] MR. MYERS: Thank you, Your Honor.
MS. RUETTGERS: Good afternoon, Your Honor.
Laura Ruettgers for the plaintiff.
Your Honor posed it as a very simple question, and
we agree with the question posed. There is a question
as to whether there is a purely legal issue, which fully
resolved the duty, which if found in favor of Ironshore,
would terminate duty to defend. And we believe there
is a motion. In fact, I have a draft of it. It’s not finalized
yet, but we’re ready to go with that motion.
If I may expand a bit on the questions before the
Court. We would submit that one other issue that the
Court could also consider at this time, and probably
should consider at this time, is whether Wilbur-Ellis’s
motion is wholly premature at this time and in this
context.
THE COURT: In the motion to stay?
MS. RUETTGERS: Yes. The motion to stay, Your
Honor. Because if you look at the stay cases in California, what you see is two important things. First of all,
the stay motions are decided in the context; all right?
So the Montrose – two cases, actually. The case that
discussed the stays specifically, there have been a trial
that had been set. The matter was at issue. The
* * *

28a
[19] record on that. Number three, what issues have to
be determined in the coverage litigation? Number
four, do those issues that need to be determined in the
coverage litigation – are they the same as the issues
that have to be determined in the underlying action?
And then finally number five, that’s when you get to
the balancing of the prejudices.
So what we would submit here, Your Honor, in
addition to the question posed - and we can go back to
that. But I wanted to lay out that Wilbur-Ellis potentially jumped the gun in this instance, because we filed
a complaint. And instead of filing an answer and
meeting and conferring and seeing if we could work
this out, they filed a stay motion. And most of the
things I heard counsel arguing is, “We’re afraid Ironshore is going to say, ‘X, Y, and Z,’ and we’re going to
have to say, ‘A, B, and C,’ to respond to it.”
As your Honor pointed out, what if we don’t say
these things?
THE COURT: What would you like to do in this
case? Would you – I mean, if the stay doesn’t issue,
then we would, what, take depositions? You’d ask
them for – what would we wait for?
MS. RUETTGERS: No. Your Honor, what Ironshore
has proposed is to stay discovery in the case. And we
[20] would like an opportunity to file our motion for
summary judgment.
And, in fact, we’d be willing to send Wilbur-Ellis an
advanced copy that we intend to file so Wilbur-Ellis –
either we could discuss any issues that may prejudice
them in the underlying action, or we could bring it
back to Your Honor. But we have context for the motion.

29a
THE COURT: So it looks like that you’re – that both
sides are in agreement except for one thing, which is
Wilbur-Ellis doesn’t want a summary judgment
motion, and you do. That’s all – no discovery. We’re not
going to do anything in this case. We’re just going to
have a stay, except you’d like a summary judgment;
right?
MS. RUETTGERS: That’s correct on the one legal
issue, Your Honor.
THE COURT: So let’s focus on that. And that’s why
I focused, as I tried, at the beginning of the hearing on
that issue. One could vaguely pick that up from the
papers.
With respect to the summary judgment motion, the
central attack that Wilbur-Ellis has is that they can’t
litigate the summary judgment motion without some
facts. You heard them talk the same way I did. What
are your thoughts about that?
* * *

30a
APPENDIX H
SUPERIOR COURT OF THE STATE OF
CALIFORNIA FOR THE COUNTY OF
SAN FRANCISCO
————
Civil Case No.: CGC – 15-549583
————
IRONSHORE SPECIALTY INSURANCE COMPANY,
an Arizona Corporation,
v.

Plaintiff,

WILBUR-ELLIS COMPANY, a California Corporation;
and DOES 1-10,
Defendants.
————
“ONE SHOT” SUBMISSION REGARDING
DEFENDANT’S MOTION TO SEAL
SUPPLEMENTAL BRIEF AND EXHIBIT D
IN SUPPORT OF MOTION TO STAY
————
Department: 304
Judge: Hon. Curtis E.A. Karnow
Complaint Filed: December 23, 2015
Trial Date: TBD
————

31a
Martin H. Myers (Bar No. 130218)
Christine S. Haskett (Bar No. 188053)
COVINGTON & BURLING LLP
One Front Street, 35th Floor
San Francisco, California 94111-5356
Telephone: + 1 (415) 591-6000
Facsimile: + 1 (415) 591-6091
E-mail: mmyers@cov.com; chaskett@cov.com
Nicholas M. Lampros (Bar No. 299618)
COVINGTON & BURLING LLP
2029 Century Park East, Suite 3100
Los Angeles, CA 90067-3044
Telephone: +1 (424) 332-4755
E-mail: nlampros@cov.com
Attorneys for Defendant
WILBUR-ELLIS COMPANY
————
Pursuant to CRC 2.550 et seq., the Court’s Users’
Manual, and the Court’s order of June 1, 2016, Defendant Wilbur-Ellis Company (“Wilbur-Ellis”1) hereby
moves to seal the following portions of Wilbur-Ellis’s
Confidential Supplemental Brief in Support of Motion
to Stay Case (“Supplemental Brief”), lodged with the
Court on May 27, 2016:
 page i, item III
 page 1, lines 10-12
 page 1, lines 15-20

1

Wilbur-Ellis Company reorganized on January 4, 2016.
References to “Wilbur-Ellis” in this memorandum and supporting
materials refer to Wilbur-Ellis Company LLC as successor-ininterest to Wilbur-Ellis Company.

32a
 page 3, lines 4-16
 page 3, lines 23-24
 page 4, lines 10-28
 page 5, lines 1-21
 Exhibit D2
Plaintiff Ironshore Specialty Insurance Company
(“Ironshore”) objects to portions of Wilbur-Ellis’s designated materials.3 In accordance with the Court’s
order of June 1, 2016, the parties’ respective arguments are presented herein in the “one-shot” format.
I. ARGUMENT
Wilbur-Ellis’s Position
Even a cursory review of the material that WilburEllis seeks to file under seal will demonstrate the extreme prejudice to Wilbur-Ellis should that material
reside in the public record. As this Court has previously noted, Wilbur-Ellis should not be put in the
position of needing to scour the world for information
potentially harmful to its interests in order to respond
to Ironshore’s proposed Motion for Summary Adjudication. But that is exactly what is happening here.
Ironshore is now compounding the problem by refusing to agree that potentially harmful and prejudicial
information may be maintained as confidential. This
Court should allow Wilbur-Ellis to file the requested
2

Concurrent with this filing, Wilbur-Ellis is providing to the
Court (but not filing) the “delta document” required by the
Court’s Users’ Manual, showing with specificity the material
sought to be sealed.
3

Ironshore is separately providing to the Court its own version
of the “delta document,” showing with strikeouts the objectionable material.

33a
portions of its Supplemental Brief under seal and
should then order this case to be stayed before
Ironshore continues on its current course of attempting to put information into the public record that will
be highly damaging to its own insured, Wilbur-Ellis.
A record may be filed under seal if: “(1) [t]here exists
an overriding interest that overcomes the right of
public access to the record; (2) [t]he overriding interest
supports sealing the record; (3) [a] substantial probability exists that the overriding interest will be
prejudiced if the record is not sealed; (4) [t]he proposed
sealing is narrowly tailored; and (5) [n]o less restrictive means exist to achieve the overriding interest.”
CRC 2.550(d). All of these circumstances exist in this
case.
A. There Is an Overriding Interest that Overcomes
the Right of Public Access, Supports Sealing the
Record, and Will Be Prejudiced if the Record Is
Not Sealed.
Wilbur-Ellis is a third-party defendant and crossdefendant in Nestlé Purina Petcare Co. v. Blue Buffalo
Co. Ltd., Case No. 4:14-cv-00859-RWS (E.D. Mo.) (“the
Underlying Litigation”). In the Underlying Litigation,
various claims have been asserted against WilburEllis based on the nature of certain products supplied
by Wilbur-Ellis to be used in pet food. As explained in
the accompanying declaration of David Granoff, there
are several portions of the Supplemental Brief that, if
made public, would cause severe and immediate prejudice to Wilbur-Ellis. See Declaration of David Granoff
in Support of Defendant’s Motion to Seal Supplemental Brief and Exhibit D in Support of Motion to
Stay ¶ 4. A review of the material sought to be sealed
will immediately demonstrate that to be the case.
Further, the court in the Underlying Litigation has

34a
already ruled that Exhibit D to the Supplemental
Brief should be filed under seal rather than be subject
to public disclosure. Id. ¶ 5. Accordingly, there is an
overriding interest here in maintaining the confidentiality of this information that overcomes the right
of public access.
B. The Proposed Sealing Is Narrowly Tailored and
No Less Restrictive Means Exist.
Wilbur-Ellis has requested that only specific portions of the Supplemental Brief be sealed, along with
one exhibit (Exhibit D) that was previously filed under
seal in the Underlying Litigation. Wilbur-Ellis has
requested to seal only the information that would
cause prejudice, and sealing this material is the most
narrowly tailored way to protect Wilbur-Ellis from
that prejudice.
Although Ironshore argues below that certain
material that Wilbur-Ellis seeks to have sealed is
irrelevant, that is not the case. First, on the “diminution in value” issue, it is not true that Ironshore’s
proposed MSA concedes that diminution in value is
alleged, thus relieving Wilbur-Ellis from presenting
any evidence of such diminution. See MSA at 16
(“Even presuming (without finding) that Blue Buffalo
alleges it sustained diminution damages . . . .”).
Second, Wilbur-Ellis has explained why the evidence
in question would be relevant to diminution in value.
Supplemental Brief at 3:10-12.
Next, Ironshore contends that the prejudicial material in Wilbur-Ellis’s Supplemental Brief should not be
sealed because it is not supported by admissible evidence. But that is not the standard for filing under
seal. The Supplemental Brief is not Wilbur-Ellis’s
response to Ironshore’s proposed MSA; it is the brief

35a
requested by the Court to explain why Wilbur-Ellis
would be required to develop evidence in response to
the MSA that could be prejudicial to Wilbur-Ellis.
Wilbur-Ellis was not required to go out and actually
develop that evidence for the purposes of the Supplemental Brief.
Ironshore also asserts that its proposed MSA “does
not turn upon a finding of hazard in any event.” But
Ironshore’s proposed MSA spends pages discussing
Ironshore’s contention that it has no duty to defend
Wilbur-Ellis unless the claims in the underlying litigation raise the issue of whether the products supplied
by Wilbur-Ellis were “hazardous.” MSA at 13-16.
Finally, Ironshore argues that Exhibit D is redundant of other material submitted. The citation to page
7 of Exhibit D contained in the Supplemental Brief,
however, provides support for the statements at page
4, line 20 through page 5, line 1, and page 5, line 19 of
the Supplemental Brief. Exhibit D is not duplicative of
any other information provided.
Ironshore’s Position
To the extent that Wilbur-Ellis is required to rely
upon evidence which could cause it prejudice in the
Underlying Action, a motion to seal is the appropriate
measure. The so-called “sealed records rules” set forth
by the California Supreme Court in NBC Subsidiary
(KNBC-TV), Inc. v. Superior Court [(1999) 20 Cal.4th
1178] and subsequently codified in CRC 2.550 and
2.551 permit a court to seal records where the moving
party establishes that there “exists an overriding
interest that overcomes the right of public access to
the record.” McNair v. National Collegiate Athletic
Association (2015) 234 Cal.App.4th 25, 32 (Addressing
appellate procedures and noting that “[T]he party

36a
seeking an order sealing [the] records . . . has the
burden to ‘justify the sealing’.”)
However, the rules require any proposed sealing to
be “narrowly tailored.” Further, the information to be
sealed must “ ‘pass the threshold tests of relevance and
admissibility’.” Overstock.Com Inc. v. Goldman Sachs
Group, Inc. (2014) 231 Cal.App.4th 471, 497 (“Overstock”), citing, E.E.O.C. v. Dial Corp. (N.D.Ill. 2000)
2000 WL 33912746, *1. Per Overstock, courts should
guard against abusive litigation tactics such as submitting documents which are irrelevant (i.e., “material
with little to no relevance to the issues to underlying
motions”) or duplicative (i.e., “multiple documents []
submitted to support a claim, when one would have
sufficed”). Id. at 257-58. In such circumstances, as “the
court’s files and records are . . . subject to the court’s
control,” a court should consider striking irrelevant or
duplicative material and either removing it from the
record or sealing it for good cause. Id. at 259 (emphasis
supplied) (Noting that the “public’s right to access to
court materials exists only as to” material that is
“relevant to the contentions advocated” and “does not
extend to irrelevant materials submitted out of laziness in reviewing and editing evidentiary submissions, or worse, out of a desire to overwhelm and
harass an opponent.”)
The designations here do not appear to reflect the
thoughtful process contemplated by the Overstock
court.4 Portions of the material highlighted do not

4

Indeed there is some question under the circumstances as to
whether the obfuscation of this simple issue is, at least in part,
intentional. See, e.g., H.B. Fuller Co. v. Doe (2007) 151 Cal.App.4th
879, 897 (“Still, their peculiarly attenuated form is sufficient to
raise a suspicion that a more direct statement would disclose

37a
appear facially prejudicial. Further, while the brief
includes some arguably sensitive information, that
information lacks any evidentiary support, and is
irrelevant and/or duplicative. While Ironshore does
not oppose Wilbur-Ellis’s motion to seal generally,
Ironshore objects to some of the material submitted.
Ironshore’s objections can be broadly broken down into
three categories; the diminution argument, the hazardous argument, and Exhibit D.
Diminution Argument – Wilbur-Ellis asserts in its
brief (see, pg. 3) that it is required to establish
diminution damages to oppose Ironshore’s MSA and,
in order to do so, it must submit the evidence referenced at page 3, lines 6-16 of the brief. Both premises
fail. First, the MSA does not turn upon a finding
of diminution but a purely legal finding that, even
presuming diminution is alleged, the policies do not
afford coverage. Second, Wilbur-Ellis makes no showing that the material is relevant to diminution. This is
significant where the information proffered appears to
be speak to intent, and potentially liability, but not
damages and neither intent nor liability are at issue
in the MSA. Further, in addition to being doubly
irrelevant, the material sought to be submitted is
wholly unsupported by any evidence.
“Hazardous” Argument – Wilbur-Ellis’s hazard argument (see pgs. 4-5) is a classic red herring. WilburEllis expressly admits the lack of allegations to date of
hazards to pets (see brief pg. 5:4-6.) The remainder
of the information provided is once again wholly
unsupported by any admissible evidence (indeed,
Wilbur-Ellis admits the “sources, by themselves, may
weaknesses in [their] position that the attenuation is intended to
conceal.”)

38a
not constitute admissible evidence”) and also irrelevant
for two reasons. First, because it is pure speculation
in the absence of any allegations. Second, because
Ironshore’s MSA does not turn upon a finding of
hazard in any event.
Exhibit D – Wilbur-Ellis offers Exhibit D (see pg. 5)
to illustrate certain assertions by Diversified. The
evidence submitted (without verification), however, is
wholly duplicative. These same allegations are contained in Diversified’s Crossclaim / Third Party Complaint attached to the brief as Exhibit C (see, e.g., Ex.
C pg. 9 ¶¶ 35, 40, by-products and feather meal, and
pgs. 11-12 ¶ 51, grade “B meal”).
The irrelevant, inadmissible, and/or duplicative material is highlighted in Ironshore’s version of the
“delta” document by strikethrough and described as
follows:


page 3, lines 6-16



page 4, lines 13 (starting at “But”) – 15,
and Fn 3



page 5, lines 3-4 (reference to Exhibit D),
line 4 (“Although”), lines 6 (starting with
“perhaps”) – 12, and lines 15 (starting
with “but”) – 19 (through “damages.”)



Exhibit D

Per Overstock, this material can be stricken and
sealed for good cause. The remaining highlighted
portions do not appear to be facially prejudicial (the
only basis for sealing offered by Wilbur-Ellis) but
Ironshore does not oppose the sealing except for page
5 lines 4-6 concerning Blue Buffalo’s and Diversified’s
allegations (highlighted in blue in Ironshore’s version

39a
of the “delta” document) which Wilbur-Ellis has not
established to be prejudicial.
II. CONCLUSION
Wilbur-Ellis’s Position
Based on the foregoing, Wilbur-Ellis respectfully
requests that the following portions of the Supplemental Brief be filed under seal:


page i, item III



page 1, lines 10-12



page 1, lines 15-20



page 3, lines 4-16



page 3, lines 23-24



page 4, lines 10-28



page 5, lines 1-21



Exhibit D

Ironshore’s Position
As more fully outlined herein, except for page 5 lines
4-6, Ironshore does not seek publication of the information Wilbur-Ellis wants to protect. Instead, Ironshore respectfully objects to certain material submitted. Per Overstock, as the court’s records are subject to
its own control, this Court can seal such information
on the motion if Wilbur-Ellis met the requisite burden
or, alternatively, it can opt not to consider such information and seal it for good cause on that basis.
DATED: June 6, 2016

40a
Respectfully submitted,
COVINGTON & BURLING LLP
By: /s/Christine S. Hasket
Martin H. Myers
Christine S. Haskett
Attorneys for Defendant
Wilbur-Ellis Company
SEVERSON & WERSON
By: /s/ Laura J. Ruettgers
Laura J. Ruettgers
Susan M. Keeney
Harry A. Hagan
Attorneys for Plaintiffs Ironshore
Specialty Insurance Company

41a
APPENDIX I
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
[Filed July 9, 2019]
————
No. 19-2448
————
IN RE WILBUR-ELLIS COMPANY LLC
WILBUR-ELLIS COMPANY LLC,
Defendant-Petitioner,
v.
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF MISSOURI,
Respondent,
BLUE BUFFALO COMPANY, LTD.,
Plaintiff-Real Party in Interest.
————
Petition for Writ of Mandamus to the United States
District Court for the Eastern District of Missouri
The Honorable Rodney W. Sippel, Presiding
Case No. 4:14 CV 859 RWS
————
PETITION FOR WRIT OF MANDAMUS
————
Mark. G. Arnold
Simon J. Frankel
Husch Blackwell LLP
(pro hac vice pending)
190 Carondelet Plaza
Covington & Burling LLP
Suite 600
Salesforce Tower
St. Louis, MO 63105
415 Mission Street,
(314) 480-1500
Suite 5400
mark.arnold@
San Francisco, CA 94105
huschblackwell.com
(415) 591-6000

42a
Corporate Disclosure Statement
Wilbur-Ellis Company LLC (“Wilbur-Ellis) is a
California limited liability company. The sole member
of Wilbur-Ellis Company LLC is Wilbur-Ellis Holdings
II, Inc., a private Delaware corporation. No publicly
held corporation owns 10% or more of the stock of
Wilbur-Ellis Company LLC.

43a
Table of Contents
INTRODUCTION ........................................................ 1
STATEMENT OF THE RELIEF SOUGHT ............... 3
STATEMENT OF THE ISSUES................................. 3
STATEMENT OF FACTS ........................................... 4
A. The Blue Buffalo Litigation ............................... 4
B. The Ironshore Insurance Coverage
Litigation ............................................................ 5
C. The District Court Orders Production of
the Ironshore Brief ............................................. 7
REASONS WHY THE WRIT SHOULD ISSUE....... 10
I. There Are No Other Adequate Means to
Attain Relief. ........................................................ 11
II. Wilbur-Ellis Has a Clear and Indisputable
Right to the Writ ................................................. 12
A. The District Court Got the State
Interest Protected by the Montrose
Doctrine Backwards. ..................................... 14
1. The Montrose Doctrine ............................ 14
2. The District Court’s Incorrect Interpretation of the Montrose Doctrine ......... 17
B. Principles of Comity Require Respecting
the California Superior Court’s Interpretation of California Law. ......................... 21
C. The District Court Failed to Consider
Relevant Factors When Deciding to
Override the Superior Court’s Sealing
Order.............................................................. 25
III. A Writ is Appropriate Under the Circumstances. ................................................................ 31
CONCLUSION .......................................................... 32

44a
Table of Authorities
Cases
American Tank Transport, Inc. v. First
People’s Community Federal Credit Union,
86 F.3d 1148 (Table), 1996 WL 265993
(4th Cir. May 20, 1996) ................................ 22, 23
Axcan Scandipharm Inc. v. Ethex Corp.,
2008 WL 11349882 (D. Minn. Dec. 31,
2008).................................................................... 26
Bankers Life & Cas. Co. v. Holland,
346 U.S. 379 (1953) ............................................ 10
Beckman Indus., Inc. v. Int’l Ins. Co.,
966 F.2d 470 (9th Cir. 1992) .............................. 28
Cent. Microfilm Serv. Corp. v. Basic/Four
Corp., 688 F.2d 1206 (8th Cir. 1982) ........... 31, 32
City of Rome, Ga. v. Hotels.com, LP, 2011
WL 13232091 (N.D. Ga. Sept. 12, 2011) ............ 28
Doe v. Doe Agency, 608 F. Supp. 2d 68
(D.D.C. 2009) ...................................................... 26
Donovan v. Lewnowski, 221 F.R.D. 587 (S.D.
Fla. 2004) ................................................ 13, 27, 28
Evanston Ins. Co. v. Russell Assocs., 2008
WL 11342976 (C.D. Cal. June 3, 2008) ............. 18
Feinwachs v. Minn. Hosp. Ass’n, 2018 WL
882808 (D. Minn. Feb. 13, 2018) ........................ 23
George F. Hillenbrand, Inc. v. Ins. Co. of N.
Am., 104 Cal. App. 4th 784, 128 Cal. Rptr.
2d 586 (2002) ...................................................... 15
Glickman, Lurie, Eiger & Co. v. I.R.S.,
1975 WL 706 (D. Minn. Oct. 14, 1975) .............. 24
Haskel, Inc. v. Super. Ct.,
33 Cal. App. 4th 963, 39 Cal. Rptr. 2d 520
(1995) ...................................................... 16, 18, 19

45a
In re Burlington Northern, Inc.,
679 F.2d 762 (8th Cir. 1982) .............................. 11
In re Gen. Motors Corp., 153 F.3d 714 (8th
Cir. 1998) ............................................................ 12
In re Kemp, 894 F.3d 900 (8th Cir. 2018).............. 10
In re Lombardi, 741 F.3d 888 (8th Cir. 2014) 11, 12
In re Mo. Dep’t of Corr., 839 F.3d 732 (8th
Cir. 2016) ...................................................... 31, 32
In re MSTG, Inc., 675 F.3d 1337 (Fed. Cir.
2012).................................................................... 32
Intermedics, Inc. v. Cardiac Pacemakers,
Inc., 1998 WL 35253496 (D. Minn. July 7,
1998), aff’d, 1998 WL 35253497 (D. Minn.
Sept. 4, 1998) ...................................................... 26
LeBlanc v. Broyhill, 123 F.R.D. 527
(W.D.N.C. 1988).................................................. 26
Mercury Interactive Corp. v. Klein, 158 Cal.
App. 4th 60, 70 Cal. Rptr. 3d 88 (2007) ............. 24
Montrose Chemical Corp. v. Superior Court,
6 Cal. 4th 287, 24 Cal. Rptr. 2d 467 (1993) ......... 5
Nat’l Benefit Programs, Inc. v. Express
Scripts, Inc., 2011 WL 6009655 (E.D. Mo.
Dec. 1, 2011) ....................................................... 25
Nat’l Union Fire Ins. Co. of Pittsburgh, Pa. v.
NVIDIA Corp., 2009 WL 2566719 (N.D.
Cal. Aug. 18, 2009) ............................................. 18
Nixon v. Warner Commc’ns, Inc., 435 U.S.
589 (1978) ..................................................... 29, 32
Ohio Willow Wood Co. v. ALPS S., LLC,
2010 WL 3470687 (S.D. Ohio Aug. 31,
2010), aff’d and adopted, 2011WL 1043474
(S.D. Ohio Mar. 18, 2011)............................. 25, 26

46a
P.R. Aqueduct & Sewer Auth. v. Clow Corp.,
111 F.R.D. 65 (D.P.R. 1986) ............................... 27
Palmieri v. New York, 779 F.2d 861, 865 (2d
Cir. 1985) ............................................................ 29
Pansy v. Borough of Stroudsburg, 23 F.3d
772 (3d Cir. 1994) ............................................... 28
Resolution Trust Corp. v. Castellett, 156
F.R.D. 89 (D.N.J. 1994), aff’d, 1994 WL
411809 (D.N.J. Aug. 2, 1994) ................. 21, 22, 23
Riddell, Inc. v. Super. Ct., 14 Cal. App. 5th
755, 222 Cal. Rptr. 3d 384 (2017) ............... 16, 19
Ruckelshaus v. Monsanto Co., 463 U.S. 1315
(1983) .................................................................. 12
Santiago v. Honeywell Int’l, Inc., 2017 WL
3610599 (S.D. Fla. Apr. 6, 2017) ........................ 26
Schlagenhauf v. Holder, 379 U.S. 104 (1964) ....... 10
Se. Res. Recovery Facility Auth. v. Montenay
Int’l Corp., 973 F.2d 711 (9th Cir. 1992) ....passim
Travelers Prop. Cas. Co. of Am. v. City of
L.A. Harbor Dep’t, 2016 WL 11522488
(C.D. Cal. Sept. 9, 2016) ..................................... 18
Statutory Authorities
28 U.S.C. § 1292(b) ............................................ 9, 11
28 U.S.C. § 1651(a) .................................................. 3
Rules and Regulations
Fed. R. App. P. 21 .................................................... 3
Cal. R. Ct. 2.551(h)(2) ................................ 24, 27, 30
Tex. R. Civ. P. 60 .................................................... 27

47a
INTRODUCTION
In May 2015, Blue Buffalo filed a third party complaint against Wilbur-Ellis in the Eastern District of
Missouri lawsuit that gives rise to this petition.
Shortly thereafter, Wilbur-Ellis’ insurance company
filed an action in state court in California, seeking a
declaratory judgment that it had no obligation to
defend or indemnify Wilbur-Ellis in the Blue Buffalo
action in Missouri. California courts have discretion to
stay such insurance actions pending disposition of the
underlying case pursuant to a line of California cases
known as the Montrose Doctrine. To obtain a stay, the
policyholder must demonstrate prejudice—that is,
that prosecution of the declaratory judgment insurance action will damage the policyholder’s defense in
the underlying liability action for which the insurance
company disputes coverage.
The California Superior Court granted the stay and
sealed Wilbur-Ellis’ brief in support based on an
explicit finding that disclosure of its contents “would
have a significant adverse impact” on Wilbur-Ellis’
“ability to defend itself” in the underlying action in
Missouri. Here, the District Court in that underlying
action has ordered Wilbur-Ellis to produce a copy of
the sealed brief to Blue Buffalo, the same party the
California Superior Court issued its sealing order to
prevent obtaining the brief. The District Court’s order
therefore effectively reversed the state court’s sealing
order. Wilbur-Ellis seeks a writ of mandamus to
compel the District Court to vacate its January 4, 2019
order directing Wilbur-Ellis to produce the brief and
its June 6, 2019 order denying reconsideration.
Wilbur-Ellis is entitled to that relief for three reasons.
First, the District Court misunderstood California’s
Montrose Doctrine. The District Court held that its

48a
order would not affect the California insurance-coverage litigation. But the basis for the sealing order
was that disclosure would “severely impact[]” WilburEllis’s defense of the underlying liability case by giving
Blue Buffalo a road map of potential legal and factual
bases for recovery against Wilbur-Ellis. If federal
courts could override sister courts and order policyholders to produce to their adversaries in related liability litigation the very brief outlining the prejudicial
theories that trigger the insurer’s duty to defend and
indemnify, the Montrose Doctrine would provide no
relief and serve no purpose.
Second, the District Court did not afford appropriate
weight to the basic principle of comity between federal
and state courts. The California Superior Court
held that disclosure of this brief to Blue Buffalo would
severely hamper Wilbur-Ellis’ ability to defend
against Blue Buffalo’s claims and that sealing the brief
was required by the Montrose Doctrine. By ordering
production of that same brief to Blue Buffalo, the
District Court has effectively stood as an appellate
body over the California Superior Court and effectively reversed that state-law finding. A federal court
should override a state court’s decision, especially on
a matter of state law, only in the most extraordinary
circumstances and no such circumstances exist here.
Third, setting aside the District Court’s effective
reversal of the California Superior Court on an issue
of California law, the District Court also ignored the
general rule that a party seeking to unseal a document
must do so in the court that issued the sealing order.
While federal courts have the power to order production of such documents, they do so only in extraordinary circumstances. The District Court found no such
extraordinary circumstances, and indeed none exist.

49a
Instead, overriding the sealing order struck at the
heart of the California Superior Court’s authority over
its own docket: The brief filed in the insurance action
was created at the request of the Superior Court and
submitted on its docket only after Wilbur-Ellis was
provided a court order assuring it that the brief would
remain under seal.
STATEMENT OF THE RELIEF SOUGHT
Pursuant to 28 U.S.C. § 1651(a) and Federal Rule
of Appellate Procedure 21, Wilbur-Ellis respectfully
requests that the Court issue a writ of mandamus
directing the District Court to vacate or reverse its
Orders of January 4, 2019 and June 6, 2019 (Dkt. Nos.
1367 and 1393) granting Blue Buffalo’s motion to
compel.
STATEMENT OF THE ISSUES
Whether the District Court erred in ordering production of the brief sealed by the California Superior
Court by (1) failing to properly consider the public
policy embodied in California’s Montrose Doctrine; (2)
improperly ignoring principles of comity in effectively
reversing an order of a California Superior Court on a
point of California law; and (3) overriding the California Superior Court’s sealing order in the absence of
any extraordinary circumstances.
STATEMENT OF FACTS
A. The Blue Buffalo Litigation
On May 6, 2014, Nestlé Purina filed a lawsuit
against Blue Buffalo asserting causes of action for
false advertising, commercial disparagement, unfair
competition, and unjust enrichment (the “Blue Buffalo
Litigation”). See Dkt. No. 1. Specifically, Purina
alleged that Blue Buffalo convinced consumers to pur-

50a
chase its pet food by falsely marketing its products as
healthier and more nutritious than competing brands.
Purina alleged that over a dozen discrete representations within Blue Buffalo’s marketing campaign were
false, including that its products offered “superior
nutrition” to other brands, that that they were
purportedly “human grade,” and that they did not
contain poultry byproduct meal. See id.
In May 2015, Blue Buffalo impleaded Wilbur-Ellis
and another company, Diversified Ingredients. See
Dkt. No. 271. Wilbur-Ellis is a marketer and distributor of agricultural products, animal feed, specialty
chemicals and ingredients. Blue Buffalo’s Third Party
Complaint alleged that both Wilbur-Ellis and Diversified were responsible for poultry byproduct contained
in Blue Buffalo pet foods, asserting breach of contract,
breach of warranty, negligence, misrepresentation,
and other claims against both Defendants. Id.
Blue Buffalo ultimately settled Purina’s claims and
is now styled as the plaintiff in the Blue Buffalo Litigation. Blue Buffalo seeks recovery of the amounts it
paid to settle Purina’s claims (and parallel claims in a
consumer class action Blue Buffalo also settled), tens
of millions of dollars in attorneys’ fees, and potentially
hundreds of millions of dollars in alleged lost profits
from both Diversified and Wilbur-Ellis.
B. The Ironshore Insurance Coverage Litigation
On December 23, 2015, Wilbur-Ellis’s commercial
general liability insurer, Ironshore Specialty Insurance Company, filed a lawsuit against Wilbur-Ellis in
San Francisco Superior Court (the “Ironshore Litigation”), seeking, among other relief, a declaratory judgment that Ironshore has no obligations to defend or
indemnify Wilbur-Ellis in connection with claims in

51a
the Blue Buffalo Litigation. Wilbur-Ellis promptly
moved to stay the Ironshore Litigation pursuant to
Montrose Chemical Corp. v. Superior Court, 6 Cal. 4th
287, 24 Cal. Rptr. 2d 467 (1993), on the ground that
Wilbur-Ellis would be subjected to unfair prejudice if
it were forced to litigate against Ironshore while at the
same time defending against the claims in the Blue
Buffalo Litigation.
On May 3, 2016, California Superior Court Judge
Curtis Karnow held a hearing in the Ironshore
Litigation on Wilbur-Ellis’s motion to stay. At that
hearing, Ironshore’s counsel argued that it was prepared to file a motion for summary judgment on the
legal issues affecting insurance coverage and that the
motion could be decided without unfair prejudice to
Wilbur-Ellis. See Dkt. No. 1371-3 at 17, 19-20. Based
on Ironshore’s arguments, Judge Karnow ordered supplemental briefing on whether such a motion should
be brought in light of the potential for prejudice to
Wilbur-Ellis in the Blue Buffalo Litigation. See Dkt.
No. 1371-4 at 4.
On May 27, 2016, Wilbur-Ellis lodged with the
California court its supplemental brief in support of its
motion to stay (the “Ironshore Brief”), and on June 6,
2016, pursuant to explicit instructions from Judge
Karnow, Wilbur-Ellis and Ironshore filed a joint
submission concerning whether the redacted portions
of that supplemental brief should be filed under seal.
See Dkt. No. 1371-5. On June 10, 2016, the Superior
Court issued an order agreeing that the unredacted
version of the brief should be sealed. See Dkt. No.
1371-6 (the “Sealing Order”). The Superior Court’s
sealing order reasoned that the sealing was justified
under the long-standing public policy articulated in
Montrose, and was intended to prevent the disclosure

52a
of the Ironshore Brief to Blue Buffalo and the other
litigants in the underlying action:
The basis for sealing is that disclosure of the
material would have a significant adverse
impact on defendant’s ability to defend itself
in underlying litigation. Thus I have scoured
the material to determine the extent to which
plaintiffs in the underlying litigation might
be able to use it to defendant’s great disadvantage. I also find that valid reasons for
sealing are the very principles of law which,
in the appropriate case, allow insureds such
as defendant here to secure a stay of the
coverage case pending resolution of the
underlying litigation. If I do not seal as
indicated in this order, defendant will be
severely impacted in the underlying litigation, and its rights to be free of the sort of
prejudice which may stem from a coverage
case will be severely and adversely impacted.
Sealing Order at 2. In other words, the Superior Court
held that the very same principles that favor a stay of
an insurance coverage case—the avoidance of unfair
prejudice to the insured—supported the sealing of
Ironshore Brief so it could not be used against WilburEllis in the Blue Buffalo Litigation. Wilbur-Ellis then
filed a redacted version of the Ironshore Brief, and on
June 20, 2016, the Superior Court issued an order
staying the Ironshore Litigation. See Dkt. No. 1371-7.
C. The District Court Orders Production of the
Ironshore Brief
Notwithstanding Judge Karnow’s sealing order in
the Ironshore Litigation, Blue Buffalo sought discovery of the unredacted Ironshore Brief through a Rule

53a
34 request for production in the Blue Buffalo Litigation. Wilbur-Ellis objected to production on the basis
of the Sealing Order and invited Blue Buffalo to seek
relief from Judge Karnow through a petition filed in
the Ironshore Litigation. Blue Buffalo did not do so,
but instead on February 1, 2017 moved the District
Court in the Blue Buffalo Litigation to compel production of the Ironshore Brief. See Dkt. No. 1202-1203.
Consideration of that motion was delayed by a stay
imposed by the District Court in deference to related
criminal proceedings. Those criminal proceedings
have so far resulted in charges against several individuals and entities involved in the Blue Buffalo
Litigation, including Wilbur-Ellis. Consideration of
Blue Buffalo’s motion was thus delayed until after
Wilbur-Ellis and Diversified entered plea agreements
admitting to strict liability misdemeanor mislabeling
violations. On January 4, 2019, the District Court
ordered production of the Ironshore Brief. See Dkt.
No. 1367 (the “January 4th Order”). But the District
Court’s January 4th Order got it backwards: rather
than consider whether its ruling might implicate
California’s interest in preventing prejudice to WilburEllis in the underlying Blue Buffalo litigation as the
Montrose Doctrine requires, the District Court incorrectly thought it was to consider potential prejudice to
Wilbur-Ellis in the Ironshore Litigation:
I am aware that my decision here frustrates
Judge Karnow’s aim of constraining discovery
in this litigation. It does not, however, undermine or affect California’s interest in the
stayed California Superior Court’s proceeding. I am not ruling on the propriety of the
Montrose doctrine in California courts, and
my decision has no impact on the stayed

54a
California dispute. Both parties in that case
already have access to the unredacted copy of
Wilbur-Ellis’s sealed brief.
January 4th Order at 5. (emphasis added). The District Court then characterized its analysis as limited
by “the longstanding admonition” to federal courts
that they “have no more right to decline the exercise of
jurisdiction which is given, than to usurp that which
is not given,” and held that California’s law did not
constrain the federal court from “applying Rule 26 to
determine whether the document is discoverable.” Id.
at 6 (citations omitted).
On January 24, 2019, Wilbur-Ellis moved for
reconsideration of the Court’s January 4th Order or,
in the alternative, for certification under 28 U.S.C.
§ 1292(b). The District Court denied Wilbur-Ellis’s Motion on June 6, 2019. See Dkt. No. 1393 (the “June 6th
Order”). The Court acknowledged that it gave “little
weight to the state court’s application of California’s
interest,” but incorrectly believed that that interest
was “specifically designed to help Wilbur-Ellis avoid
discovery in this case.” Id. at 4. Although it gave no
indication it had studied the circumstances of the
Superior Court’s issuance of the sealing order in the
context of a potential summary judgment motion in
the Ironshore Litigation after the motion for a stay
already had been made, in the District Court’s view,
the “appropriate effectuation of the Montrose Doctrine
is a stay, not a protective order.” Without authority or
analysis, the District Court concluded that the sealing
order issued by Judge Karnow “appears to be a novel,
or at best rarely used, application of the Montrose
Doctrine.” Id. Nor did the District Court consider
whether any extraordinary factors justified overriding

55a
the Superior Court’s authority to control its own
records and files. Id.
Wilbur-Ellis now respectfully petitions the Court for
a writ of mandamus directing the District Court to
deny Blue Buffalo’s motion to compel the Ironshore
Brief.
REASONS WHY THE WRIT SHOULD ISSUE
Mandamus is reserved for exceptional circumstances. See Bankers Life & Cas. Co. v. Holland, 346 U.S.
379, 382–83 (1953). A writ of mandamus “is appropriately issued, however, when there is ‘usurpation
of judicial power’ or a clear abuse of discretion.”
Schlagenhauf v. Holder, 379 U.S. 104, 110 (1964)
(citation omitted). Although discovery orders are not
ordinarily appealable, mandamus is available to
preclude discovery that “would be oppressive and
interfere with important state interests.” In re Kemp,
894 F.3d 900, 905-06 (8th Cir. 2018) (citation omitted).
The District Court’s effective reversal of the California
Superior Court’s application of California law and its
decision to override that court’s sealing order is exactly the type of action that warrants this extraordinary relief.
Mandamus relief is available when three conditions
are met: (1) the “petitioning party must satisfy the
court that he has ‘no other adequate means to attain
the relief he desires,’” (2) “his entitlement to the writ
is ‘clear and indisputable,’” and (3) the “issuing court,
in the exercise of its discretion, must be satisfied that
the writ is appropriate under the circumstances.” In re
Lombardi, 741 F.3d 888, 894 (8th Cir. 2014) (citation
omitted). All three conditions are met here.

56a
I. There Are No Other Adequate Means to Attain
Relief.
Wilbur-Ellis diligently has exhausted all alternative
avenues for relief, and mandamus now is the only way
to correct the District Court’s erroneous ruling and
prevent the very prejudice that the California Superior Court’s order sought to avoid under Montrose.
Wilbur-Ellis first raised the federalism, comity, and
judicial authority considerations that weighed against
ordering production of the Ironshore Brief in opposition to Blue Buffalo’s motion to compel, but the District Court disregarded them. Wilbur-Ellis then moved
for reconsideration or, in the alternative, certification
for interlocutory appeal; in denying that motion, the
District Court again misinterpreted the California
state interest animating the Montrose Doctrine and
did not analyze any of the factors that might have provided justification for the District Court—rather than
the judge who issued the sealing order—to decide the
issue. Because the District Court declined certification
pursuant to Section 1292(b), no immediate appeal to
this Court is possible. Cf. In re Burlington Northern,
Inc., 679 F.2d 762, 768 (8th Cir. 1982) (finding mandamus review inappropriate where petitioner had not
sought certification under 28 U.S.C. § 1292(b)).
Nor is appeal from a final judgment on the merits
an adequate or realistic alternative means of relief
here. Much like a dispute over the discoverability of
the identities of entities or individuals, or the production of documents protected by the attorney-client
privilege, production of the Ironshore Brief is a cat
that cannot be put back in the bag. See Lombardi, 741
F.3d at 894 (no adequate remedy available for a
discovery order compelling the disclosure of identities
because disclosure would have collateral consequences

57a
prior to traditional appeal); In re Gen. Motors Corp.,
153 F.3d 714, 715 (8th Cir. 1998) (holding that the
“extraordinary remedy of mandamus is appropriate
because the district court’s order would otherwise
destroy the confidentiality of the [privileged] communications at issue”); cf. Ruckelshaus v. Monsanto Co.,
463 U.S. 1315, 1317 (1983) (denying stay of injunction
pending appeal because trade secrets disclosed during
stay “could not be made secret again if the judgment
below ultimately is affirmed”).
Absent mandamus, the Orders compelling WilburEllis to produce the Ironshore Brief will evade meaningful appellate review on important issues of state
public policy, comity and judicial authority, resulting
in irreparable harm and prejudice to Wilbur-Ellis.
II. Wilbur-Ellis Has a Clear and Indisputable
Right to the Writ.
District courts across the country agree that
“[c]ourts which have been called upon to decide
discovery motions that involve requests to modify or
terminate a protective order previously issued by another court, whether state or federal, have frequently
felt constrained by principles of comity, courtesy, and
where a federal court is asked to take such action with
regard to a previously issued state court protective
order, federalism.” Donovan v. Lewnowski, 221 F.R.D.
587, 588 (S.D. Fla. 2004) (collecting cases) (citations
omitted). While such courts have discretion to override
protective or sealing orders under extraordinary circumstances, see id., those instances are the exception,
not the rule.
In this case, the District Court flipped the standard
on its head. Instead of weighing the comity and federalism concerns implicated by Blue Buffalo’s motion

58a
to compel, the District Court overrode the California
Superior Court’s sealing order as if the Ironshore Brief
was no differently situated than any other document
within the ambit of Rules 26 and 34. Specifically, the
District Court ordered production: (1) based on an
incorrect interpretation of the California public policy
articulated in Montrose; (2) by improperly acting as an
appellate court over the California Superior Court;
and (3) without any consideration of the factors that
courts generally weigh when determining whether to
take this drastic action, all of which favor respecting
the California Superior Court’s sealing order in this
case. Each error is an independent ground for reversing the District Court’s Orders compelling production
of the Ironshore Brief. Together, they warrant issuance of a writ of mandamus.
A. The District Court Got the State Interest
Protected by the Montrose Doctrine Backwards.
The District Court justified giving “little weight” to
California public policy by misstating the very interest
the Montrose Doctrine protects, then second-guessing
the Superior Court’s determination that the state
interest required sealing the Ironshore Brief. See June
6th Order at 4 (opining that the “appropriate effectuation of the Montrose Doctrine is a stay, not a protective
order”). The District Court thus improperly eliminated
from its analysis any consideration of the federalism
and comity concerns implicated by Blue Buffalo’s
motion to compel. The California Superior Court was
correct that production of the Ironshore Brief would
inflict the very prejudice that the Montrose Doctrine is
intended to prevent, and the District Court’s refusal
appropriately to consider California’s strong state
public policy was error and a clear abuse of discretion.

59a
1. The Montrose Doctrine
The Montrose Doctrine addresses a common but
vexing problem created when insurance declaratory
relief actions are brought at the same time the underlying lawsuit for which coverage is sought is pending.
In such situations the facts or theories on which
coverage will turn often overlap with the facts or
theories that the plaintiff suing the policyholder must
prove to establish liability in the underlying action. To
take a simple example, if a plaintiff files an action
against a policyholder for both intentional and negligent torts, and the insurer then files a declaratory
relief action arguing that coverage is not available
because the policyholder “expected or intended” injury
to occur, the same facts that will determine coverage—
that the policyholder expected or intended injury to
occur also would establish the policyholder’s liability
to the plaintiff for the intentional tort.
The California Supreme Court addressed the prejudice created by such simultaneous litigation in
Montrose, the leading California decision on a liability
insurer’s duty to defend. In that case, the Court
established that a policyholder should not be required
to suffer prejudice from litigating in an insurance
coverage action the same or overlapping factual issues
present in the underlying action. Instead, “a stay of
the declaratory relief action pending resolution of
the third party suit is appropriate when the coverage
question turns on facts to be litigated in the underlying action.” See Montrose, 6 Cal. 4th at 301.
While part of the prejudice contemplated by the
Montrose Court was the cost and inconvenience of
litigating in two forums simultaneously, see, e.g.,
George F. Hillenbrand, Inc. v. Ins. Co. of N. Am., 104
Cal. App. 4th 784, 803-04, 128 Cal. Rptr. 2d 586, 600

60a
(2002) (noting the “practical difficulties” for insureds
“defend[ing] against two actions”), that is not the sole
(or even primary) concern. If it were, there would be
no need for California judges to consider whether a
stay or a confidentiality order is the appropriate
method to prevent the policyholder from suffering
prejudice in the underlying action. See Haskel, Inc. v.
Super. Ct., 33 Cal. App. 4th 963, 981, 39 Cal. Rptr. 2d
520, 530 (1995), as modified (Apr. 25, 1995) (holding
that Montrose justified either a stay of discovery or a
“properly drafted confidentiality order” to the extent
that the lower court determined such an order to be
“adequate to fully protect [the policyholder] from any
prejudice to its interests in the underlying action”).
California’s interest in protecting its policyholders
from prejudice in the underlying lawsuits for which
they seek insurance coverage was confirmed and
expanded in the most recent California appellate
decision on the subject, Riddell, Inc. v. Super. Ct., 14
Cal. App. 5th 755, 222 Cal. Rptr. 3d 384 (2017). In
that decision, the Court of Appeals reinforced that
California’s state interest is not limited to issues of
cost or preventing collateral estoppel, but extends to
the use of information generated through discovery in
the coverage action that could prejudice the policyholder in an underlying lawsuit:
[T]he declaratory relief action must be stayed
because of the risk of prejudice to the insured,
including the risk of collateral estoppel. Discovery in the declaratory relief action that is
logically related to issues affecting liability in
the underlying action poses a similar risk of
prejudice.
Id. at 766. The Superior Court in the Ironshore
Litigation relied on the same Montrose principles

61a
when it sealed the Ironshore Brief. See Sealing Order
at 2.
2. The District Court’s Incorrect Interpretation of the Montrose Doctrine
The District Court’s January 4th Order did not
apply the Montrose Doctrine at all. Rather than
consider the prejudice to Wilbur-Ellis in the Blue
Buffalo Litigation (as Montrose requires and as the
California Superior Court properly did), the District
Court considered whether its decision to order production of the Ironshore Brief would prejudice WilburEllis in the Ironshore Litigation:
I am aware that my decision here frustrates
Judge Karnow’s aim of constraining discovery
in this litigation. It does not, however, undermine or affect California’s interest in the
stayed California Superior Court’s proceeding. I am not ruling on the propriety of the
Montrose doctrine in California courts, and
my decision has no impact on the stayed
California dispute.
January 4th Order at 5 (emphasis added). That is not
the state interest contemplated by Montrose.
While the District Court’s June 6th Order on
reconsideration re-cast its prior mis-articulation of
Monstrose, that Order, without analysis, afforded
“little weight” to the actual, protected state interest.
See June 6th Order at 4. Instead, the District Court
suggested that ordering the production of the Ironshore Brief notwithstanding the sealing order did not
implicate the Montrose Doctrine at all. In the District
Court’s view, the California Superior Court’s analysis
was wrong because a stay of the coverage action
represented the “appropriate effectuation of the

62a
Montrose Doctrine,” and a protective order like the
sealing order here was “a novel, or at best rarely used,
application” that should be afforded little weight. Id.
In other words, the District Court concluded that the
Montrose Doctrine did not militate against production
of the Ironshore Brief and so, without actually weighing the interests of comity and federalism implicated,
ordered its production.
The District Court’s interpretation of the Montrose
Doctrine is mistaken and fundamentally undermines
California’s state policy. As an initial matter, the
District Court’s unsupported conclusion that protective or sealing orders are somehow “novel, or at best
rarely used” applications of the doctrine is incorrect.
See Haskel, 33 Cal. App. 4th at 981 (directing trial
court to consider whether confidentiality order in
insurance action would adequately protect policyholder from prejudice in underlying action); Travelers
Prop. Cas. Co. of Am. v. City of L.A. Harbor Dep’t, 2016
WL 11522488, at *3 (C.D. Cal. Sept. 9, 2016); (“[A]s an
alternative to a stay, courts have issued protective
orders limiting the use and dispersal of information
obtained through discovery in insurance coverage
actions, to prevent prejudice to an insured’s position in
underlying actions”); Nat’l Union Fire Ins. Co. of
Pittsburgh, Pa. v. NVIDIA Corp., 2009 WL 2566719, at
*6 (N.D. Cal. Aug. 18, 2009) (observing that the
policyholder “may seek a protective order and move for
filing under seal any documents that could be prejudicial to it in [the underlying] litigation”); Evanston Ins.
Co. v. Russell Assocs., 2008 WL 11342976, at *4 (C.D.
Cal. June 3, 2008) (inviting policyholder to move for a
“protective order to restrict the dissemination of any
[discovery] information” to the extent that information

63a
may prejudice the policyholder in the underlying
action).1
Sealing a brief submitted by a policyholder in support of a Montrose stay is particularly necessary to
effectuate the purpose of the Montrose Doctrine. This
is because policyholders are not automatically entitled
to a Montrose stay whenever a coverage action and
underlying action are pending simultaneously. Rather, in order to stay a California coverage action
under Montrose, a policyholder must demonstrate to
the California court that the facts at issue in the two
cases are sufficiently overlapping such that prejudice
is sufficiently likely to occur. See Riddell, 14 Cal. App.
5th at 765-66. This leads to exactly the trap that a
Montrose Doctrine sealing order is intended to avoid.
To demonstrate it is entitled to a stay, the policyholder
will often be required to play “devil’s advocate” and
predict the arguments and legal theories that the
plaintiffs in the underlying action will make and the
prejudice the policyholder will suffer if the coverage
action is not stayed.
Providing that “roadmap” to the underlying plaintiff
violates the very purpose of the Montrose rule, and
inflicts the exact prejudice on the policyholder that a
stay is intended to prevent. See Riddell, 14 Cal. App.
5th at 768 (Montrose stays are mandated because they
1

Because Superior Court decisions in California are not
published (and are largely not contained on services like Westlaw
and LexisNexis), there is no readily accessible means of establishing the frequency with which courts issue confidentiality or
sealing orders pursuant to Montrose and Haskel. The primary
source of accessible case law on this issue is the (likely small)
fraction of California insurance cases that are litigated in federal
court, where district court orders are more accessible on legal
research platforms.

64a
protect the policyholder from “prejudice caused by
having to build the underlying plaintiffs’ case for
them”). As the Superior Court explained, the “rights to
be free of the sort of prejudice which may stem from
a coverage case [would] be severely and adversely
impacted” by production of a brief seeking a Montrose
stay. See Sealing Order at 2. In fact, production of a
brief seeking a Montrose stay would exacerbate the
prejudice to the policyholder by providing underlying
plaintiffs with analysis of potential theories they may
never have obtained, or would have received only
months or years later in discovery.
The crippling impact of the District Court’s decision
on the Montrose Doctrine is plain. If in order to
demonstrate its right to a Montrose stay, the
policyholder must suffer the very same prejudice the
stay is intended to prevent (disclosure of adverse facts
to the plaintiff in the underlying action), the doctrine
is fatally undermined.
* * * *
For these reasons, the District Court’s determination that production of the Ironshore Brief did not
implicate the Montrose Doctrine was erroneous. While
theoretically it is possible for some extraordinary
necessity to override California’s strong public policy
in some instance, the District Court’s Orders did not
make any finding sufficient to do so here. Instead, the
District Court treated Blue Buffalo’s request for production as it would any other request for documents,
without regard to the impact that its decision would
have on California’s public policy interests and the
California Superior Court’s sealing order. This warrants the issuance of a writ of mandamus.

65a
B. Principles of Comity Require Respecting the
California Superior Court’s Interpretation of
California Law.
The California Superior Court did not merely find
that the Ironshore Brief was sensitive, embarrassing,
or otherwise warranted protection from public view—
a determination that itself is afforded substantial deference—as described Section II.C, below. Instead, the
California Superior Court applied long-established
California law and found that the state interests
articulated in Montrose and its progeny required sealing the Ironshore Brief. By overriding the Sealing
Order on the ground that the California Superior
Court misapplied the Montrose Doctrine, the District
Court acted as a de facto appellate court and reversed
the California Superior Court’s interpretation of California law. That is not the role of the District Court.
A similar circumstance was addressed in Resolution
Trust Corp. v. Castellett, 156 F.R.D. 89 (D.N.J. 1994),
aff’d, 1994 WL 411809 (D.N.J. Aug. 2, 1994), where the
district court determined that principles of federalism
and comity required it to respect a state court’s decision to seal exhibits submitted to a state grand jury.
Id. at 90-91. In that case, the defendants in a federal
civil action in New Jersey also had been the subject of
a grand jury investigation in New York. The state
indictments arising from that investigation ultimately
were voluntarily dismissed. Id. at 90. Subsequently,
the plaintiff in the federal action moved the state court
to access the exhibits and evidence submitted to the
grand jury. Id. The state court denied the plaintiff’s
application, finding that the records should remain
sealed under New York’s statutory provision requiring
the sealing of records in criminal matters terminated
in the defendant’s favor. Id. at 91. As in this case, the

66a
plaintiff ultimately petitioned the district court in the
civil action to override the state court order and
compel the disclosure of the state court records.
In denying the plaintiff’s request to override the
sealing order, the district court rejected the notion
that it could compel the state court, in contravention
of its own order, to release the grand jury materials
sealed pursuant to state law. As the district court explained, “[b]y requesting this Court to file an order requiring the state court to disclose the requested
materials, the movant essentially asks this Court to
act as a state appellate court . . . . [S]uch a request is
‘deeply offensive to the notion of federalism.’” Id. at 95
(citation omitted).
The Fourth Circuit Court of Appeals addressed a
substantively similar question in American Tank
Transport, Inc. v. First People’s Community Federal
Credit Union, 86 F.3d 1148 (Table), 1996 WL 265993
(4th Cir. May 20, 1996). That case also involved a civil
plaintiff in federal court seeking access to state court
grand jury materials. Id. at *2-3. In American Tank,
however, the state court sealing order the district
court declined to override was the state court’s reconsideration of a prior order unsealing those materials,
whereby the state court “recalled” the grand jury transcripts at issue. Id. at *3. In affirming the district
court’s decision, the Fourth Circuit held that “it was
proper, and probably necessary, for the district court
to have acknowledged and honored the state courts
ruling recalling the grand jury materials.” Id. at *7.
The Fourth Circuit recognized that “it would be
improper for a federal court to act as a state appellate
court and [overrule] a state court decision concerning
state criminal procedures” and that doing so “impermissibly intruded into the province of the state appel-

67a
late courts to review questions concerning state procedural matters.” Id.
The Ninth Circuit also has invoked similar reasoning to reverse a district court’s order enjoining an
arbitration proceeding where a state court had already
found—under the same provision of the California
Code of Civil Procedure—that the arbitration should
not be enjoined. See Se. Res. Recovery Facility Auth. v.
Montenay Int’l Corp., 973 F.2d 711, 714 (9th Cir. 1992)
(holding that effectively overruling the state court
decision would create “needless friction between the
state and federal forums”). And several district courts
have found that overriding a state court’s protective
order would amount to an impermissible exercise of
appellate jurisdiction over the state court proceeding.
See Feinwachs v. Minn. Hosp. Ass’n, 2018 WL 882808,
at *4 (D. Minn. Feb. 13, 2018) (“This Court will not
exercise what amounts to appellate jurisdiction and
effectively overrule or vacate a state court protective
order shielding documents from the public. Comity
between state and federal courts and constraints
placed on a federal district court’s jurisdiction dictate
nothing less.”); Glickman, Lurie, Eiger & Co. v. I.R.S.,
1975 WL 706, at *4 (D. Minn. Oct. 14, 1975) (“The
Federal courts are not empowered to review the
propriety of protective discovery orders in State court
proceedings. . . . [The contrary position], if accepted,
would result in deep and repeated intrusions by the
Federal courts into the discovery process in State
courts”).
The District Court’s decision to order production of
the Ironshore Brief in this case is the same unwarranted intrusion into state court proceedings. The
Superior Court’s decision to seal the brief was based
on California law. California courts are best suited to

68a
adjudicate Blue Buffalo’s request for the Ironshore
Brief, and California law provides an avenue for Blue
Buffalo to do so. See Cal. R. Ct. 2.551(h)(2) (providing
than any “member of the public may move, apply, or
petition . . . to unseal a record”). Blue Buffalo thus had
(and still has) the opportunity to convince the
California Superior Court that its interpretation of the
Montrose Doctrine was mistaken. Had Blue Buffalo
done so and the Superior Court declined to unseal the
Ironshore Brief, Blue Buffalo could then have appealed to the California Court of Appeals. See Mercury
Interactive Corp. v. Klein, 158 Cal. App. 4th 60, 76, 70
Cal. Rptr. 3d 88, 99 (2007) (order sealing or unsealing
a court record is immediately appealable as a final
determination of a collateral matter). Blue Buffalo
could then argue to a California appellate court that
the Superior Court had misinterpreted the scope of the
California state interest expressed in the Montrose
Doctrine.
That is the path that the parties’ dispute over the
scope and application of the Montrose Doctrine should
have taken, and this Court should issue a writ that
forecloses Blue Buffalo’s attempt to skirt the proper
court and procedure.
C. The District Court Failed to Consider
Relevant Factors When Deciding to Override
the Superior Court’s Sealing Order.
The District Court’s decision to override the Sealing
Order would represent a clear abuse of discretion even
if the basis for the California Superior Court’s decision
had nothing to do with substantive California law.
When a party seeks production of a document subject
to any protective or sealing order issued in another
case, the “general rule” is that “any request necessitating the modification of the protective order be directed

69a
to the issuing court.” Ohio Willow Wood Co. v. ALPS
S., LLC, 2010 WL 3470687, at *2 (S.D. Ohio Aug. 31,
2010) (citation omitted), aff’d and adopted, 2011 WL
1043474 (S.D. Ohio Mar. 18, 2011); Nat’l Benefit
Programs, Inc. v. Express Scripts, Inc., 2011 WL
6009655, at *4 (E.D. Mo. Dec. 1, 2011) (refusing to
override state court protective order and holding that
“requests for its modification should be directed to the
Court that issued it”).2
Although courts make exceptions under unique
circumstances, see, e.g., Santiago v. Honeywell Int’l,
Inc., 2017 WL 3610599, at *3 (S.D. Fla. Apr. 6, 2017)
(comparing various “exceptions” and “test[s]”), none
exists here, and the District Court did not examine
any. Every relevant factor courts have applied weighs
in favor of denying Blue Buffalo’s motion and directing
Blue Buffalo to seek relief from the Superior Court.
First, courts consider whether the case in which the
document was sealed is still pending. When the case is
no longer pending, courts are more likely to make their
own determinations about discoverability without
sending the moving party back to petition the judge in
a non-existent case, recognizing that a “practical solution” is needed in such circumstances. LeBlanc v.
Broyhill, 123 F.R.D. 527, 531 (W.D.N.C. 1988); see also
Ohio Willow Wood, 2010 WL 3470687 at *2. The
2

See also Axcan Scandipharm Inc. v. Ethex Corp., 2008 WL
11349882, at *9 (D. Minn. Dec. 31, 2008) (“[T]he law is clear that
it is the court that issued the protective order to which any
request for modification of that order must be directed.”); Intermedics, Inc. v. Cardiac Pacemakers, Inc., 1998 WL 35253496, at
*5 (D. Minn. July 7, 1998), aff’d, 1998 WL 35253497 (D. Minn.
Sept. 4, 1998) (holding requests to modify protective order should
be directed to the issuing court); Doe v. Doe Agency, 608 F. Supp.
2d 68, 71 (D.D.C. 2009) (same).

70a
Ironshore Litigation is still pending, so this factor
weighs against ordering production of the Ironshore
Brief over the Sealing Order.
Second, courts consider whether the procedures of
the court that sealed the document or issued the
protective order provide an avenue for third parties to
petition the court for access. See P.R. Aqueduct &
Sewer Auth. v. Clow Corp., 111 F.R.D. 65, 67-68 (D.P.R.
1986) (ordering moving party to seek deposition transcripts ordered sealed by a Texas state court directly
from the sealing judge, noting that Rule 60 of
the Texas Rules of Civil Procedure provided plaintiff
an avenue to intervene). Here, as noted, California
provides such an avenue. See Cal. R. Ct. 2.551(h)(2).
This factor too weighs against granting Blue Buffalo’s
motion to compel.
Third, courts are particularly inclined to defer to
state court sealing or protective orders where the
order was not a simple administrative act, but rather
was the result of a deliberative process. For example,
in Donovan, a federal district court in Florida quashed
a subpoena seeking documents sealed by a state court
in part because the state court’s protective orders were
“deliberative [in] nature” (as opposed to a “ministerial”
consent order). See Donovan, 221 F.R.D. at 591. The
same is true for the order that sealed the Ironshore
Brief. Judge Karnow invited briefing on what portions
of the Ironshore Brief should be sealed and why.
See Dkt. No. 1371-4. Judge Karnow considered these
arguments, and ordered portions of the brief sealed
specifically to protect Wilbur-Ellis from the prejudice
of Blue Buffalo accessing those portions in this action.
See Sealing Order at 2. This factor too weighs against
Blue Buffalo’s motion to compel.

71a
Fourth, a “court should consider whether it is
possible to incorporate terms in [a new protective]
order which will further the protections originally
ordered by the [state court].” City of Rome, Ga. v.
Hotels.com, LP, 2011 WL 13232091, at *3 (N.D. Ga.
Sept. 12, 2011) (second modification in original). This
is not possible here. Judge Karnow ordered the sealing
of the redacted language in the Ironshore Brief
specifically to preclude Blue Buffalo from accessing
that portion of the brief to use in this action. The
District Court could not order production of those
redacted passages to Blue Buffalo without contravening the specific purpose of Judge Karnow’s order. This
factor too weighs in favor of deferring to Judge
Karnow’s decision and instructing Blue Buffalo to
petition the California Superior Court for modification
of its sealing order.
Fifth, deference to Judge Karnow’s sealing order is
warranted because production of the Ironshore Brief
would substantially undermine litigants’ ability to
rely on the integrity of judicial orders. In evaluating
motions to modify state court protective orders, “one of
the factors the court should consider . . . is the reliance
by the original parties on the confidentiality order.”
Pansy v. Borough of Stroudsburg, 23 F.3d 772, 790 (3d
Cir. 1994); see also Beckman Indus., Inc. v. Int’l Ins.
Co., 966 F.2d 470, 475 (9th Cir. 1992); Donovan, 221
F.R.D. at 588 (holding that “respect for the effect of
preexisting judicial orders” compels quashing federal
subpoena of documents protected by state court
protective order).
In this case, Wilbur-Ellis submitted the Ironshore
Brief in the Ironshore Litigation only because it was
assured by the California Superior Court that Blue
Buffalo could not access it. Had Judge Karnow refused

72a
to seal the brief, Wilbur-Ellis would not have
submitted it at all, or Wilbur-Ellis would have substantially altered it to avoid the prejudice the District
Court’s action in this case will inflict. Circumventing
Judge Karnow’s sealing order by ordering production
of the Ironshore Brief would be inequitable given that
the brief would not exist but for Wilbur-Ellis’s reliance
on that order. See Palmieri v. New York, 779 F.2d 861,
862, 865 (2d Cir. 1985) (reversing modification of
protective order where “the very papers and information [sought] apparently would not even have
existed but for the sealing orders and the magistrate’s
personal assurances of confidentiality, upon which the
appellants apparently relied in agreeing to enter
closed-door settlement negotiations”).
Finally, the fact that the Superior Court’s sealing
order applies only to a single brief created by WilburEllis at the specific request of the Superior Court
places the Superior Court’s authority at its zenith. See
Nixon v. Warner Commc’ns, Inc., 435 U.S. 589, 598
(1978) (“Every court has supervisory power over its
own records and files, and access has been denied
where court files might have become a vehicle for
improper purposes”). The Superior Court’s sealing
order applies only to the legal arguments submitted by
Wilbur-Ellis on the Superior Court’s own docket.
Nothing in the Superior Court’s order prevents Blue
Buffalo from seeking discovery in the Blue Buffalo
Litigation of any facts or documents that may have
been addressed in the Ironshore Brief. The Superior
Court sealing order does not, for example, seek to
shield from discovery in other actions primary source
documents, such as underlying records or data, that
could be directly relevant to discovery in other
lawsuits.

73a
* * * *
The District Court’s did not mention—let alone
evaluate and weigh—any of these considerations. Nor
did the District Court identify any other extraordinary
circumstances that could warrant a departure from
the general rule that modifications to protective or
sealing orders must be sought from the issuing judge
who issued the order. It is clear that each factor applicable weighs strongly against overriding the Superior
Court’s sealing order, and a writ should issue directing
the District Court to deny Blue Buffalo’s motion to
compel the Ironshore Brief. The appropriate method if
any for Blue Buffalo to pursue the Ironshore Brief is
to petition the Superior Court for access pursuant to
California Rule of Court 2.551(h)(2).
III. A Writ is Appropriate Under the Circumstances.
“[I]f the first two prerequisites [for mandamus
relief] have been met, the issuing court, in the exercise
of its discretion, must be satisfied that the writ is
appropriate under the circumstances.” In re Mo. Dep’t
of Corr., 839 F.3d 732, 735 (8th Cir. 2016) (citation
omitted, first modification in original). In this instance, there are no other means for Wilbur-Ellis to
secure the relief to which it is entitled, and no other
factors militate against mandamus.
Mandamus is particularly appropriate in this case
because the District Court’s decision implicates significant questions of federalism, comity, and judicial
authority that this Court has not squarely addressed
in this context. Cent. Microfilm Serv. Corp. v. Basic/
Four Corp., 688 F.2d 1206, 1212 (8th Cir. 1982)
(“Other factors which bear on the appropriateness of
mandamus review include the need to correct error

74a
which is likely to recur and to provide guidelines for
the resolution of novel and important questions”).
Although several district courts have addressed (and
largely agree on) the standards that apply where a
court is asked to override a sister court’s protective or
sealing order, there is scant appellate authority on the
subject, and none from this Court. Issuance of the
requested writ will provide the direct guidance that
writ review is intended to foster.
The state and judicial interests implicated by this
writ petition also support granting review. California
law has long sought to prevent California insurance
coverage actions from prejudicing the policyholder’s
defense in the underlying action for which coverage
is disputed. See Montrose, 6 Cal. 4th at 301-302. And,
as noted, courts are imbued with broad supervisory
powers to control their own records and files. Nixon,
435 U.S. at 598. Resolving the interplay between these
interests and a district court’s authority under Rules
26 and 34 of the Federal Rules of Civil Procedure is
exactly the situation where mandamus review is
appropriate. See Cent. Microfilm Serv., 688 F.2d at
1212; see also In re MSTG, Inc., 675 F.3d 1337, 1341
(Fed. Cir. 2012) (“It is appropriate to rely on mandamus to address a novel and important question of
power to compel discovery”) (citation omitted).
CONCLUSION
For the foregoing reasons, Petitioner respectfully
requests that this Court issue a writ of mandamus
directing the District Court to vacate or reverse its
Orders of January 4, 2019 and June 6, 2019 (Dkt. Nos.
1367 and 1393) in the action captioned Blue Buffalo
Company, Ltd. v. Wilbur-Ellis Company LLC, et al.,
Case No. 4:14 CV 859 RWS (E.D. Mo.).

75a
Dated: July 9, 2019
Respectfully Submitted,
/s/ Mark G. Arnold
Mark. G. Arnold
Husch Blackwell LLP
190 Carondelet Plaza Suite 600
St. Louis MO. 63105
(314) 480-1500 (Phone)
(314) 480-1505 (Fax)
mark.arnold@huschblackwell.com
Martin H. Myers
(pro hac vice pending)
Covington & Burling LLP
Salesforce Tower
415 Mission Street, Suite 5400
San Francisco, CA 94105-2533
Telephone: 415-591-6000
Fax: 415-591-6091

